U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Department of Homeland Security v. New York, No. 20-449
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 7,
2020. The responses are currently due, after one extension, on December 9, 2020. Respondents
have sought a further extension of time to and including January 8, 2021 within which to file their
responses. On behalf of the Department of Homeland Security (DHS) and the other governmental
petitioners, we write to express our opposition to any such further extension.
The district court entered the preliminary injunctions at issue in this case on October 11,
2019. See Pet. App. 121a, 158a. This Court entered a stay pending appeal of those injunctions on
January 27, 2020, and directed that its stay would remain in effect “pending disposition of the
Government’s appeal in the United States Court of Appeals for the Second Circuit and disposition
of the Government’s petition for a writ of certiorari, if such writ is timely sought.” 140 S. Ct. 599,
599. On August 4, 2020, the court of appeals affirmed the district court’s preliminary injunctions.
See Pet. App. 1a-90a.
The government filed its petition for a writ of certiorari well before it was due and early
enough to ensure that even if respondents received a 30-day extension of the time for filing their
response, the Court would still be able to consider the petition at its January 8, 2021 Conference
and, if it granted the petition, hear argument in the case this Term. The government acted with
expedition because of the significant uncertainty that the court of appeals’ decision has created
about the status of the DHS rule at issue: notwithstanding this Court’s stay, the conflicting
decisions about the rule’s validity from the Second, Fourth, Seventh, and Ninth Circuits, see Pet.
24-26, have created confusion that only a decision from this Court can resolve, and the government
and the public have a strong interest in obtaining such resolution as quickly as possible.
Granting respondents’ requests for a further extension of time, however, would—absent a
departure from this Court’s ordinary practices—prevent the Court from even considering the
petition until at least its February 19, 2021 Conference, and would prevent the Court from hearing
argument in the case until October Term 2021. No sound basis exists for such delay.

Respondents speculate that DHS may choose in the future to rescind the rule. Even if
respondents’ speculation about the agency’s future actions were to prove true, however, the agency
would need to go through notice-and-comment rulemaking again before making any final
determination—a process that would itself likely be subject to further litigation. That just
underscores why this Court should have the opportunity to address the current rule’s validity, and
the breadth of authority granted by the underlying statutory provisions, this Term. Respondents’
request would, as a practical matter, deprive this Court of that choice.
Accordingly, the government respectfully requests that the Court grant no further
extension of time within which to respond to the government’s petition in this case.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0449
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, ET AL.
NEW YORK, ET AL.

BAHER AZMY
CENTER FOR CONSTITUTIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6464
BAZMY@CCRJUSTICE.ORG
JONATHAN H. HURWITZ
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON, LLP
1285 AVENUE OF THE AMERICAS
NEW YORK, NY 10019212-373-3254
JHURWITZ@PAULWEISS.COM
CLARE E. KINDALL
ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
10 FRANKLLIN SQUARE
NEW BRITAIN, CT 06051
860-827-2683
CLARE.KINDALL@CT.GOV
GEORGIA MARY PESTANA
INTERIM CORPORATION COUNSEL
NEW YORK LAW DEPARTMENT
100 CHURCH STREET
NEW YORK, NY 10007
212-356-2400

JULIO A. THOMPSON
ASSISTANT GENERAL COUNSEL
VERMONT OFFICE OF THE ATTORNEY
GENERAL
1711 BLISS ROAD
EAST MONTPELIER,, VT 05651
802-828-5519
JULIO.THOMPSON@VERMONT.GOV
BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
ATTORNEY GENERAL'S OFFICE
28 LIBERTY STREET
NEW YORK, NY 10005-1400
212-416-6274
BARBARA.UNDERWOOD@AG.NY.GOV

